September 17, 2003
Audit Report No. 03-041


Insurance Determination Claims Process
                                           TABLE OF CONTENTS


BACKGROUND ................................................................................................................2
  Overview of Insurance Coverage ...............................................................................2
  Claims Process Redesign Project................................................................................4

RESULTS OF AUDIT.......................................................................................................6
FINDING A: ACCURATE INSURANCE DETERMINATIONS ................................8
   Initial Reconciliation of Depositor Data ....................................................................8
   Insurance Determinations ...........................................................................................9

FINDING B: PROCESS CONTROL FOR INSURANCE
             DETERMINATIONS ...............................................................................11
   Nature of Exceptions ..................................................................................................12
   Description of Exceptions ..........................................................................................13

CONCLUSION AND RECOMMENDATION .............................................................15

CORPORATION COMMENTS AND OIG EVALUATION......................................17

APPENDIX I:                OBJECTIVE, SCOPE, AND METHODOLOGY.........................18

APPENDIX II:               OVERVIEW OF THE INSURANCE DETERMINATION
                           PROCESS..........................................................................................25

APPENDIX III: CORPORATION COMMENTS.....................................................28

APPENDIX IV:               MANAGEMENT RESPONSE TO
                           RECOMMENDATION ...................................................................29

TABLES:
  Table 1: Overview of Common Deposit Insurance Ownership Categories...........3
  Table 2: Claims Process Issues Identified by
           IBM Business Consulting Services .............................................................5
  Table 3: Summary of Audit Test Results..................................................................6
  Table 4: Analysis of Audit Test Results by Institution............................................9
  Table 5: Analysis of Audit Exceptions ....................................................................11
  Table 6: Sample Projections Based on Number of Exceptions .............................12
  Table 7: Audit Universe and Sample ......................................................................20
  Table 8: FDIC Strategic Goals and Objectives for Insurance ..............................21

FIGURE:
   Overview of Claims Process......................................................................................27
Federal Deposit Insurance Corporation                                                                         Office of Audits
Washington, D.C. 20434                                                                           Office of Inspector General


DATE:                                         September 17, 2003

MEMORANDUM TO:                                Mitchell L. Glassman, Director
                                              Division of Resolutions and Receiverships




FROM:                                         Russell A. Rau
                                              Assistant Inspector General for Audits

SUBJECT:                                      Insurance Determination Claims Process

This report presents the results of the Office of Inspector General’s (OIG) audit of the insurance
determination claims process. Deposit insurance is a fundamental part of the Federal Deposit
Insurance Corporation’s (FDIC) commitment to maintain stability and public confidence in the
U.S. financial system. The FDIC’s Division of Resolutions and Receiverships (DRR)
Receivership Operations Branch is responsible for ensuring that bank customers have timely
access to their insured deposits at failed insured depository institutions either by facilitating the
transfer of their ins ured deposits to an assuming institution or by paying insured depositors
directly. 1 More specifically, DRR’s Dallas Field Operation Branch (DFOB or Claims
Department) has the primary mission of coordinating the payment of deposit insurance claims.

The objective of this audit was to determine whether DRR is accurately making deposit
insurance determinations. The claims process spans the three phases of the resolution process:
pre-closing, closing, and post-closing. 2 The main objective of the claims activity in the pre-
closing phase is to provide an estimate of the insured and uninsured deposits that is a component
in developing the least costly resolution strategy. 3 Once the insured depository institution is
closed, the focus of the claims process is to identify the insured depositors, certify their claims,
and provide access to those insured funds as quickly and as efficiently as possible without paying
amounts that are uninsured. Historically, the FDIC has executed the deposit insurance
determination function over the closing weekend. Our audit focused on actual insurance
determinations that resulted from the closing and post-closing processes. Appendix I describes
our objectives, scope, and methodology in more detail.

1
  The Federal Deposit Insurance Act, 12 U.S.C. 1821(f), states in part that the payment shall be made by the FDIC
as soon as possible either by case or by making available to each depositor a transferred deposit in a new depository
institution in an amount equal to the insured deposit of such depositor. While the law does not set forth a precise
timetable or deadline for the payment of deposit insurance, the FDIC has traditionally made payments to insured
depositors within 3 days of an institution’s failure.
2
  The resolution process involves valuing a failed insured depository institution, marketing it, soliciting bids for the
sale of the institution, determining which bid is least costly to the relevant insurance fund, and working with the
acquiring institution(s) through the closing process (or paying off insured deposits if there is no acquirer).
3
   The FDIC is required under 12 U.S.C. 1823(c ) to implement the resolution alternative that is determined to be
least costly to the relevant deposit insurance fund of all possible resolution alternatives, including liquidation of the
failed institution.
BACKGROUND

Overview of Insura nce Coverage

The FDIC protects depositors’ funds in the event of the financial failure of a bank or savings
institution. 4 The basic insured amount for a depositor is $100,000. In applying the $100,000
limit, the FDIC must adhere to the rules set forth in the Federal Deposit Insurance Act (FDIA). 5
However, the FDIA provides that in applying the $100,000 insurance limit, the FDIC “shall
aggregate the amounts of all deposits in the insured depository institution which are maintained
by a depositor in the same capacity and same right for the benefit of the depositor.” In other
words, funds held in different ownership categories are insured separately from each other. 6
Therefore, one person can hold more than $100,000 in insured funds if the funds are held in
different ownership capacities. Table 1 provides an overview of the common ownership
categories and applicable deposit insurance coverage.




4
  The FDIC maintains, manages, and controls risks to the deposit insurance funds, i.e., Bank Insurance Fund (BIF)
and the Savings Association Insurance Fund (SAIF). When a financial institution fails, the FDIC pays off insured
deposits or, more frequently, it arranges for the transfer of insured accounts from the failed institution to a healthy
institution.
5
  The FDIC has issued a uniform set of deposit insurance regulations applicable to both banks and savings
associations. Those regulations are codified at 12 C.F.R. Part 330.
6
  The FDIC recognizes 13 ownership categories.
                                                           2
Table 1: Overview of Common Deposit Insurance Ownership Categories
        Ownership Category                         Definition and Deposit Insurance Coverage
Single Ownership Accounts (SOA)         Accounts owned by one person and include accounts in the
                                        owner’s name; those established for the benefit of the owner by
                                        agents, nominees, guardians, custodians, or conservators; and
                                        those established by a business that is a sole proprietorship. All
                                        SOAs established by or for the benefit of the same person are
                                        added together and are insured up to a maximum of $100,000.
Joint Ownership Accounts                Accounts owned by two or more individuals. The interests of
                                        each individual in all joint accounts he or she owns are added
                                        together and insured up to $100,000 maximum.
Revocable Trust Accounts (also called   Accounts that evidence an intention that the funds will belong to
Testamentary Accounts and Payable on    a named beneficiary upon the death of the owner (grantor or
Death Accounts)                         depositor). Revocable trust accounts are insured up to $100,000
                                        per grantor (owner) for each qualified beneficiary. a
                                 b
Revocable Living Trust Accounts         A revocable living trust is established through a written trust
                                        document. In this type of trust, the trust’s owner (grantor) retains
                                        control during his or her lifetime. Upon the owner’s death, the
                                        trust generally becomes irrevocable. This type of trust requires
                                        special review by FDIC attorneys to determine whether the trust
                                        qualifies for insurance coverage under the revocable trust
                                        category. If the requirements are met, the grantor is insured up to
                                        $100,000 per qualifying beneficiary. a
Irrevocable Trust                       Accounts established by statute or a written trust agreement in
                                        which the settler (the creator of the trust) contributes funds and/or
                                        property and relinquishes all power to revoke the trust. The
                                        interest of each beneficiary in an account established under an
                                        irrevocable trust is insured up to $100,000. c
Accounts of a Corporation, Partnership, Accounts that contain funds of a corporation, partnership, or
or Unincorporated Association           unincorporated association are insured up to a maximum of
                                        $100,000.
Retirement Accounts                     Funds from pension, profit sharing, deferred compensation, or
                                        other employee benefit plans. Deposits of retirement and
                                        employee benefit plans generally are insured up to $100,000 per
                                        each participant’s interest in the plan.
Public Unit Accounts                    Funds owned by cities, counties, states, or other government
                                        entities of the United States and deposited by an official
                                        custodian. Each official custodian of time and savings accounts
                                        of a public unit is insured up to $100,000. In addition, demand
                                        deposits maintained in an insured institution in the same state as
                                        the public unit are separately insured up to $100,000.
Source: FDIC Deposit Insurance Publications.
a
  Qualified beneficiaries are defined in 12 C.F.R. 330.10 as a parent, sibling, spouse, child, or grandchild of the
owner.
b
  The FDIC recently proposed two alternatives for clarifying its rules on the insurance coverage of living trust
accounts and requested public comments on the proposed alternatives by August 29, 2003.
c
  Kinship is not a factor in determining coverage for irrevocable trusts.

Each of the ownership categories has specific requirements that must be met in order to receive
separate insurance under the category. However, if an account fails to meet the specific
requirements of a particular insurance category, the funds may be considered, for deposit
                                                 3
insurance purposes, to belong to another category – usually the single ownership category. In
that case, the funds are added together with any other funds that the depositor has in the single
ownership category and are insured to $100,000. According to information published by the
FDIC, the most common categories of deposit ownership are single, joint, and testamentary
accounts. Additional information about the FDIC’s insurance determination process is in
Appendix II.

Claims Process Redesign Project

Since mid-2000, DRR officials and representatives from other divisions (including the Division
of Information and Resources Management (DIRM), the Divisio n of Finance (DOF), and the
Division of Insurance and Research (DIR)) have been working to identify and implement
changes to the current claims process to promote the efficient handling of depositor insurance
determinations for any size institution that ma y fail. To that end, DRR has implemented both
work flow changes and enhancements to the Receivership Liability System (RLS). 7 DRR
recognizes that as insured depository institutions continue to grow, changes must be made to
ensure that timely insured deposit determinations can be made for an insured depository
institution with millions of deposit accounts. According to DRR data, the largest depository
institution that has been subject to insurance determination had about 150,000 accounts.

In addition to these internal efforts, DRR contracted with IBM Business Consulting Services
(IBM) to perform an independent assessment of the FDIC insurance claims process and to
develop potential options for increasing the capacity of the claims functions and make
recommendations regarding the optimal solution. IBM’s assessment of the claims process
progressed in stages:

•     Discovery Phase – learned about the process through interviews and observations.
•     Envision Phase – worked with DRR to identify the critical functions, priorities, and a vision
      of how the process should work and to develop a concept of how to achieve the vision.
•     High-Level Design – defined options for process improvement.

Table 2 highlights the issues that were identified by IBM.




7
    The RLS is the system of record for insurance determinations.
                                                          4
Table 2: Claims Process Issues Identified by IBM Business Consulting Services
                         Issue                                          Description of Issue
    Heavy Reliance on Manual or Paper Processes     The volume and frequency of paper-based handoffs
                                                    between the different groups involved in the claims
                                                    process creates the potential for human error and
                                                    operational inefficiencies.
 Resource Intensive                                 The claims processing is resource intensive, requiring
                                                    coordination between multiple teams and resources and
                                                    relying heavily on the knowledge and expertise of its
                                                    staff. Considering the current staffing levels and the
                                                    operational complexities, it is possible that the FDIC
                                                    could face resource constraints that would affect its
                                                    ability to close a large or very complex institution in a
                                                    timely manner.
 Inconsistent Application of Business Practices     The subjective nature of the process may make it
                                                    difficult to recreate the decisions made by agents. Many
                                                    decisions are based upon the subjective interpretations of
                                                    the more experienced agents. When inquiries are
                                                    received well after the termination of the receivership,
                                                    the investigation and resolution of these issues requires
                                                    substantial involvement by the claims staff.
 Unclear Measure of Capacity                        The total number of accounts that could be effectively
                                                    “handled” within the current FDIC process could not be
                                                    established – estimates ranged from 120,000 to 350,000
                                                    accounts.
 Unclear Process Metrics                            Performance guidelines or measures concerning the
                                                    accuracy and efficiency of the claims process could not
                                                    be obtained. These types of measures should be used to
                                                    monitor, control, and improve operations. Moreover,
                                                    there does not appear to be a consistent means of
                                                    comparing the effectiveness of the pre-closing insurance
                                                    estimate relative to the actual determinations made
                                                    during the closing and post-closing phases. Assessments
                                                    offered during the interviews indicate a significant range
                                                    of variability might exist.
Source: IBM Business Consulting Services FDIC Claims Process Analysis: Discovery Phase Report, dated
June 2002.

To address these issues, IBM did not recommend functional improvements beyond those
identified by DRR staff. However, IBM proposed using commercially available software to
implement identified improvements in a more integrated way. In other words, IBM
recommended that DRR redesign its process to incorporate a greater use of technology and to
use commercially available software, rather than make enhancements to the internally designed,
custom-built RLS. DRR is working with IBM to prepare a business case for the claims process
redesign that it plans to present to the FDIC’s Capital Investment Review Committee in
October 2003. 8



8
  The Capital Investment Review Committee was established in 2002 and is dedicated to reviewing and overseeing
all major Information Technology (IT) and non-IT capital investments.
                                                      5
RESULTS OF AUDIT

Overall, DRR is accurately making insurance determinations. Specifically, DFOB made
accurate insurance determinations for approximately 96 percent (234 of 243) of the accounts
and/or groups of accounts tested and for 99 percent of the dollars in our sample. Table 3
provides a summary of the overall test results and illustrates that the exceptions identified were
small relative to the total value of the accounts reviewed.

Table 3: Summary of Audit Test Results
                                                                           Actual Excess          Range of
Total No. of        Value of            Value of             Total          Insurance         Potential Excess
  Items             Accounts            Accounts             No. of          Coverage            Insurance
 Sampled            Sampled          Found Accurate        Exceptions        Provideda           Coverageb

    243            $65,358,818         $65,208,548              9              $2,676            $0-$147,593

Source: OIG analysis of audit results.
a
  We did not identify any cases in which FDIC did not fully insure a depositor. Presumably, those types of errors
would be minimal because depositors would naturally question the FDIC if they believed they were entitled to
additional deposit insurance coverage.
b
  In several cases, we were unable to definitively quantify the amount of error because supplemental information
from the depositor or the failed insured depository institution’s records was needed and was not available to make a
final insurance determination. These amounts represent the aggregate range of potential excess insurance coverage.

In making these insurance determinations, DRR accurately (1) reconciled the deposit data loaded
from the failed insured depository institutions records to RLS, (2) grouped deposit accounts by
owner, (3) placed accounts or groups of accounts in appropriate ownership categories, and
(4) compared aggregate balances to the applicable insurance limits. Additionally, when
appropriate, DRR obtained supplemental information from the depositor to make a final
insurance determination. Accordingly, the FDIC provided depositors access to their insured
deposits in accordance with the FDIC’s deposit insurance rules and regulations. (See Finding A:
Accurate Insurance Determinations.)

We identified a total of nine cases for which the insurance determinations made by DRR were
inaccurate or potentially inaccurate. In evaluating the nature of the exceptions, we determined
that all but one of the exceptions were attributable to human error, most of which occurred
during the manual phase of the grouping process. As part of its process redesign, DRR is
evaluating how to better leverage technology to decrease the risk of human error. Nonetheless,
under the existing process, the FDIC provided excess or potential excess deposit insurance
coverage as a result of the exceptions identified.

In consultation with DIR, we made some statistical inferences based on our results. As
explained in Appendix I, we selected a statistically valid sample of accounts for each of the
insured depository institutions that failed in 2002. DIR derived two-sided (upper and lower)
95-percent confidence limits for the total number of exceptions for each institution’s universe,
based on the number of exceptions identified in our samples. We recognize that all the
                                                         6
exceptions identified will not result in actual errors. Nonetheless, the sample projections support
the notion that in a labor- intensive process there is a greater risk of errors occurring at larger
institutions because of the workload. We could not evaluate the significance of the exceptions
identified or projected because DRR has not established process metrics for accuracy to which
we could compare our results. (See Finding B: Process Control for Insurance Determinations.)




                                                 7
FINDING A: ACCURATE INSURANCE DETERMINATIONS

Accurate insurance determinations depend on obtaining complete deposit data from the failed
insured depository institution and appropriately analyzing that data in the context of the FDIC’s
deposit insurance rules and regulations. DFOB generally reconciled the initial data loaded into
the RLS from the failed financial institutions ’ records for each of the 11 failures in 2002. In
addition, DRR accurately made insurance determinations for 96 percent (234 of 243) of the
accounts and/or groups of accounts tested and for 99 percent of the dollars in our sample. These
results provide assurance that the insurance determination process is working as intended and
that the DRR insured deposits in accordance with applicable rules and regulations.

Initial Reconciliation of Depositor Data

Deposit data from the failed insured depository institution must be loaded into RLS before
insurance determinations can be made. DRR has established procedures to ensure that initial
data loaded to the RLS reconciles to the receivership’s Proforma closing balances. 9 In
accordance with those procedures, DRR completed data certifications for each of the 11 failures
in 2002.

More specifically, the closing balances were in agreement for three institutions and differed only
nominally for seven institutions. For the remaining institution, a $230,114 difference existed
between the RLS and Proforma closing balances. Although this difference was not material in
relation to the institution’s total deposits of $1.23 billion, DFOB officials agreed that balances
should have been reconciled more precisely. Procedures in Reconciliation of Liability Accounts
at Closing – Amended, Claims Procedure No. 01-008-A, dated May 21, 2001, require the claims
specialist to complete the reconciliation of RLS to the Proforma closing balances within 30 days
of closing or to submit a request in writing to a claims supervisor document ing the reason the
extension was needed.

In this one case, the claims agent never finished the reconciliation. Additional work on the
closing reconciliation was inadvertently neglected because the claims specialist who assumed
responsibility for this receivership was not aware that the accounts were out of balance. The
reconciliation was transferred from one claims specialist to another when the claims work was
transitioned from the closing site to the office in Dallas, Texas. In response to our audit, DRR
and DOF officials completed the reconciliation of these balances and are working to revise
existing procedures to help ensure that reconciliations are completed promptly in the future.
Therefore, we are not making any recommendations to address this issue.




9
  Proforma is one of the many functions in the FDIC’s closing process. The primary focus of the Proforma team is
to produce a balance sheet that reflects a reasonably accurate financial statement of the failed insured depository
institution through the date of closing. The FDIC’s Division of Finance is responsible for this function.
                                                         8
Insurance Determinations

The test results provided assurance that DFOB consistently applied FDIC insurance rules and
regulations. Table 4 provides a summary of the test results for the items sampled in each of the
institutions.

Table 4: Analysis of Audit Test Results by Institution*
                                      No. of                        Value of        Value of
                         Items        Items                         Accounts        Accounts
     Institution        Sampled      Accurate      Percentage       Sampled         Accurate      Percentage
Hamilton Bank, NA          56           53            95%          $14,221,470     $14,220,019       99%
Bank of Sierra             10            8            80%            5,333,754       5,292,403       99%
Blanca
Oakwood Deposit           23         23               100%           5,923,702       5,923,702       100%
Bank
Next Bank, NA             40         38               95%           7,421,344        7,320,889       98%
Net First National        12         12               100%          2,361,608        2,361,608       100%
Bank
Connecticut Bank of       41         41               100%         11,153,292       11,153,292       100%
Commerce
Universal FSB             18         17               94%           6,029,285        6,027,568       99%
AmTrade                    6           6              100%          2,083,389        2,083,389       100%
Bank of Alamo             21         21               100%          5,088,731        5,088,731       100%
Farmers Bank &            16         15               94%           5,742,243        5,736,947       99%
Trust
Total                    243        234                96%         $65,358,818    $65,208,548        99%
Source: OIG analysis of sampled items .

* Although 11 institutions failed in 2002, we sampled from 10 of the 11 institutions for the reasons discussed in
Appendix I.

In general, these test results indicated that DFOB appropriately:

•   Identified and grouped all SOAs and provided insurance coverage up to $100,000. This
    included appropriately grouping accounts that did not meet the qualifying requirements for
    separate insurance coverage in another insurance category.
•   Identified and added the ownership interests of each joint account co-owner and insured each
    respective co-owner’s share up to $100,000.
•   Identified the number of qualified beneficiaries and insured each owner (grantor) up to
    $100,000 for each qualified beneficiary for testamentary accounts. For example, if the
    grantor established a payable-on-death (POD) account for three qualified beneficia ries, DRR
    provided insurance coverage up to $300,000. To determine whether the beneficiaries were
    qualified, claims specialists had depositors complete an affidavit of kinship that identified the
    relationship between the owner and each beneficiary. Witho ut exception, the test results
    indicated that DRR complied with its policies in this regard.



                                                          9
•    Identified the number of qualified beneficiaries and obtained Legal Division opinions to
     determine insurance coverage for Revocable Living Trusts. 10 DRR insured the interest of
     each beneficiary up to $100,000.
•    Identified and insured individual retirement accounts up to $100,000.
•    Determined whether pension or profit-sharing plan participants were entitled to pass-through
     insurance. Pass-through insurance means that each participant’s ascertainable interest in the
     deposit -- as opposed to the deposit as a whole -- is insured up to $100,000.

In summary, DFOB successfully executed the fundamental tasks necessary to make an insurance
determination by doing the following:

•    Grouped all deposits by owner.
•    Differentiated grouped accounts that qualified for separate categories of insurance coverage.
•    Totaled the deposits by owner and insurance category and compared the deposits to the
     applicable insurance limit in accordance with FDIC deposit insurance rules and regulations.
     This included obtaining required supplemental documentation from depositors to evaluate
     whether separate insurance coverage requirements were met.

Accordingly, the FDIC appropriately transferred or paid insured depositors and issued
receivership certificates to uninsured depositors. This achievement is significant considering that
many of these critical activities were successfully executed within a span of 2-3 days (i.e.,
closing weekend).




10
   Living trust agreements require the Legal Division review to ensure that the agreements do not contain any
“defeating contingencies.” “Defeating contingencies” are conditions in the trust document that create the possibility
that the beneficiaries may never receive the funds following the owner’s death. In the presence of a “defeating
contingency,” the revocable trust account will not be entitled to separate insurance coverage under the revocable
trust account insurance rules.
                                                         10
FINDING B: PROCESS CONTROL FOR INSURANCE DETERMINATIONS


Although DRR’s insurance determinations were generally accurate, we identified nine cases for
which the determinations were either inaccurate or potentially inaccurate. All but one of the nine
exceptions resulted from human error, which is a risk that exists in a process that relies heavily
on manual and paper-based processes. Consequently, the FDIC provided excess or potentially
excess deposit insurance coverage, even though the amounts were nominal. Table 5 summarizes
the insurance determination exceptions identified for each of the 10 institutions tested.

Table 5: Analysis of Audit Exceptions
                                                                                         Range of
                       Total No.                             Actual Excess           Potential Excess
                       of Items        Number of               Insurance           Insurance Coverage
   Institution         Sampled         Exceptions          Coverage Provided            Provided
Hamilton, NA              56               3*                     $609                  $235-$842
Bank of Sierra            10                2                      $0                $3,311 - $41,351
Blanca
Oakwood                23                   0                      $0                       $0
Deposit Bank
Next Bank, NA          40                   2                     $350                $104-$100,104
Net First              12                   0                      $0                      $0
National Bank
Connecticut            41                   0                      $0                       $0
Bank of
Commerce
Universal FSB          18                   1                    $1,717                     $0
AmTrade                 6                   0                      $0                       $0
Bank of Alamo          21                   0                      $0                       $0
Farmers Bank &         16                   1                      $0                     $5,295
Trust
Total                 243                  9                     $2,676                $0-$147,593
Source: OIG analysis of tested items .

*
    Number of exceptions includes one case for which DRR issued the receivership certificate to the wrong individual.



As discussed earlier, we consulted with DIR to help us evaluate our results. Specifically, DIR
derived two-sided (upper and lower) 95-percent confidence limits for the total number of
exceptions for each institution’s universe, based on the number of exceptions identified in our
samples. Table 6 presents DIR’s sample projections for each of the institut ions included in our
universe. Hamilton Bank, NA and Next Bank, NA were the two largest insured depository
institutions in our universe as measured by the value of assets. For these two institutions, the
upper 95-percent confidence limits for the total number of exceptions were 83 (Hamilton) and 16
(Next Bank ). Considering that most of the exceptions resulted from human error, the sample
projections support the notion that in a labor- intensive process there is a greater risk of errors
occurring at larger institutions because of the workload. We could not evaluate whether the

                                                          11
number of exceptions we identified or projected was significant in comparison to DRR’s
expectations because DRR has not established process metrics for accuracy. Additionally, DRR
has not established a process for sampling insurance determinations to assess the determination
process against established performance metrics.

Table 6: Sample Projections Based on Number of Exceptions
                                                            Number of          Two-Sided 95-Percent
   Institution    Population a      Sample Size             Exceptions          Confidence Limit
Hamilton, NA            582              56                     3                     8, 83
Bank of Sierra           11              10                     2                      2, 3
Blanca
Oakwood                  39              23                      0                       0, 3
Deposit Bank
Next Bank, NA           112              40                      2                      2, 16
Net First                15              12                      0                      0, 2
National Bank
Connecticut             132              41                      0                       0, 9
Bank of
Commerce
Universal FSB            24              18                      1                       1, 4
AmTrade                   6               6                      0                      N/A b
Bank of Alamo            30              21                      0                       0, 2
Farmers Bank &           20              16                      1                       1, 3
Trust
 Totals                 971             243                      9
Source: DIR analysis of OIG sample results.
a
  DIR estimated population size based on the number of account groups found in the sample that were eligible for
audit. Ineligible groups included groups with brokered accounts and groups for which the insurance determination
had not yet been made at the time of the audit.
b
  No projection was possible because the entire universe of items was selected for sampling purposes .

Nature of Exceptions

As previously discussed, the exceptions were a relatively small portion of the total items tested.
However, we cannot objectively evaluate the significance of the number or value of these
exceptions because DRR does not have process metrics related to accuracy. IBM’s report, FDIC
Claims Process Analysis: Discovery Phase Report, issued in June 2002, states that “the
definition of successfully providing deposit insurance coverage for all insured depositors is
limited to one dimension, the length of time required to provide depositors access to their funds.
Other dimensions, such as accuracy or efficiency are not addressed.” Based on the importance
of the claims function to the FDIC’s mission, DRR should routinely track and evaluate the
accuracy of insurance determinations.

Our analysis of the nine exceptions did not identify any systemic weakness in the insurance
determination process other than the known consequence of a manually intensive process –
human error. In seven cases, DRR provided, or possibly provided, excess insurance coverage
because of errors primarily related to the manual phase of the grouping process. The manual
                                                       12
phase of the grouping process creates the potential for human error because of the nature of the
tasks. As one would expect, more exceptions occurred and were projected to occur in the larger
insured depository institutions.

More specifically, after the manual review process is completed, various teams of claims
specialists review the proposed changes (edits), manually entered the edits into RLS, and
reviewed the resulting grouping reports to verify that the edits were accurately made. These
tasks can be laborious, especially in the larger institutions. In addition, this process typically
takes place from Saturday morning to Sunday afternoon. Consequently, claims specialists are
subject to working long hours to accomplish the task. In addition, final insurance determinations
are subject to a series of supervisory reviews. Although there was evidence in each case that
established processes were followed, exceptions resulted from human errors. However, the fact
that we identified only seven exceptions related to the grouping process provides assurance that
management controls established by DRR are generally effective. The following describes the
exceptions in more detail.

Description of Exceptions

Exceptions related to the Grouping Process

(1) In NextBank, one group was inadvertently removed from the Grouping Report and was fully
insured. Specifically, two joint accounts should have been left in the Grouping Report because
one owner’s share of the two joint accounts exceeded $100,000. However, the account s were
incorrectly marked to be “ungrouped,” and the error was not detected in the review process.
DFOB agreed that the depositor received $88 in excess deposit insurance coverage.

(2) In three cases, errors occurred in the editing process. Specifically, in two Hamilton cases and
one NextBank case, groups that were not marked to be ungrouped were inadvertently deleted
from the respective grouping reports. As a result, all the deposits were fully insured. At both the
Hamilton and NextBank closings, the fact that the editing processes occurred late on the
respective Saturday evenings may have contributed to the errors.

More specifically, in the first Hamilton case, one SOA and two related living trust accounts were
ungrouped even though these accounts were not marked to be deleted in the Grouping Report.
The living trust accounts totaled more than $100,000 indicating that DRR should have kept the
accounts in the Grouping Report, followed up with the depositor to verify the number of
qualified beneficiaries, and obtained a review of the trust agreement by the FDIC Legal Division.
DFOB officials agreed that the depositor may have received excess deposit insurance coverage
of either $235, if there was only one qualified beneficiary, or $842 if the trust did not qualify for
separate insurance and reverted to the SOA category. We also recognize that DFOB’s insurance
determination for this case may be correct if multiple qualified beneficiaries exist.

In the second Hamilton case, a POD account and an SOA were ungrouped even though the
accounts were marked to be kept in the Grouping Report. DRR should have kept the SOA and
POD accounts grouped and followed up with the depositor to verify the number of qualified
                                              13
beneficiaries before finalizing the insurance decision. As a result of our audit, DFOB followed
up with the depositor and determined that the POD was fully insured. DFOB agreed that the
depositor received $609 in excess insurance coverage.

For NextBank, an SOA that exceeded $100,000 and a rela ted living trust account should have
remained in the Grouping Report so that claims specialists could follow up with the owner to
verify the number of qualified beneficiaries and obtain a review of the trust agreement by the
FDIC Legal Division. These accounts were deleted even though there was no edit in the
Grouping Report to do so. DFOB agreed that the depositor received $262 in excess deposit
insurance coverage for the SOA and may have received either $104 (if it is determined that there
is only one qualified beneficiary) or $100,104 (if it is determined that the trust did not qualify for
separate insurance coverage) of additional excess deposit insurance. Because NextBank failed in
February 2002, DFOB decided it would not burden the depositor to request the trust agreement
now. In addition, DFOB officials told us that many trust agreements are found to be va lid for
insurance purposes and considered there to be a high probability that this depositor would be
fully insured.

(3) In two cases at Sierra Blanca, the claims specialists indicated that the accounts were
ungrouped accounts based on the specialists’ review of signature cards during the closing
weekend. However, DRR’s files did not include copies of the signature cards. Therefore, we
were unable to verify this insurance determination decision. During the grouping process, claims
specialists may pull signature cards to verify account ownership. However, without copies of the
signature cards to indicate otherwise, DFOB officials agreed that these accounts should have
stayed in the Grouping Report. DFOB officials also agreed that the depositors may have
received excess deposit insurance coverage. Specifically, in the first case, DFOB agreed that the
depositors may have received either $3,311 or $32,670 excess deposit insurance coverage
depending upon the verified account ownership. In the second case, DFOB agreed that the
depositor may have received $8,680 excess deposit insurance coverage. In response to our audit,
DFOB has asked the acquiring institution to provide copies of the signature cards so that we can
verify the account ownership.

(4) For Farmers, the claims specialists decided to ungroup an account because they determined
that the account ownership classification made by RLS was not correct. 11 Specifically, RLS
classified one account with a balance of $100,169 as a business account and, accordingly, this
account was included in the Grouping Report. During closing weekend, claims specialists
determined that this was a joint account with two owners. Claims specialists then determined
that the account was fully insured because each owner’s share of the joint account was less than
$100,000.

However, there were 13 other potentially related joint accounts. According to DFOB’s Basic
Assumptions for Editing the Grouping Report, strings of joint accounts should be kept together to
determine whether adding individual interests together in several joint accounts makes someone

11
   The ownership classification was a new feature added to RLS Version 8. This institution was the first to be
closed using RLS Version 8.
                                                        14
uninsured in the joint account category. The claims specialist was not aware that the other joint
accounts existed because the Grouping Report did not show these joint accounts with the
business account. After ungrouping the accounts, the claims specialist needed to manually
search RLS to see whether there were any other related accounts. To prevent similar future
errors, DRR has been working with DIRM on an RLS enhancement that will allow the claims
specialist to view the entire extended family. 12

By seeing the extended family, the claims specialist will have another opportunity to review and
capture accounts that impact on the insurance determination process. DFOB officials believe
this enhancement will provide another control that will facilitate the verification of the manual
edits. In this case, DFOB agreed that the depositor may have received $5,296 excess deposit
insurance coverage. However, DFOB officials also stated that the insurance determination may
be accurate because some of the joint accounts might be SOAs established by the parents for
their children. Although two names appear in the account, the parents’ names may appear for
convenience purposes. DFOB would have to review the signature cards before making a final
determination.

Other Exceptions

In addition to the grouping errors, DFOB made one mathematical error in calculating the
uninsured share of the depositor’s accounts and inadvertently issued the receivership certificate
(RC) to the wrong individual. With respect to the mathematical error, DFOB agreed that it
provided excess insurance coverage of $1,717. DFOB has voided the RC issued to the wrong
individual and reissued one to the uninsured depositor.

DRR officials agreed with our analysis of all of the exceptions. However, after considering the
time since the failure dates and the amounts of the errors or potential errors, officials decided not
to take further action in these cases. Specifically, officials decided not to burden the depositor
with requests for additional information that is needed to make a final determination or pursue
the collection of excess insurance that has been provided. DFOB is also developing desktop
guidance for handling deposit insurance overpayments to help ensure that the process for
handling these cases is standardized.


CONCLUSION AND RECOMMENDATION

Overall, DFOB is accurately making insurance determinations. Nevertheless, our findings show
that human error will occur under the existing process despite established controls and DFOB
efforts to make timely and accurate insurance determinations. This was particularly evident for
larger institutions where resources invariably became stressed. Indeed, all but one of the
exceptions we identified resulted from human error and, in eight cases, these errors resulted in


12
   An extended family is the entire group of accounts linked by common keys regardless of ownership type and
includes insured (group 0) and uninsured accounts.
                                                      15
actual or potential excess deposit insurance coverage. DRR recognizes that the existing process
could be improved and has been working to reengineer the process.

Specifically, DRR has been exploring ways to reduce the reliance on labor and paper-based
processes which should thereby mitigate the risk and cost of human errors. DRR agreed with our
analysis of the individual exceptions and has taken appropriate action to address each case.
Therefore, we are not making any recommendations specifically related to these exceptions.
Additionally, DFOB has begun developing desktop guidance for handling deposit insurance
overpayments to help ensure that overpayments are handled consistently in the future. DFOB is
revising procedures for reconciling the initial deposit data loaded into RLS to ensure that these
reconciliations are completed as required. Because DRR is taking appropriate actions to address
these issues we are not making any formal recommendations in this regard.

The fact that DRR does not have established process metrics for accuracy remains a concern.
IBM recommended that DRR establish more precise, definitive performance measurements,
particularly for accuracy. We also believe that it is important for DRR to establish process
metrics. Such metrics would have allowed DRR to objectively evaluate whether the exceptions
were significant and provided DRR with a baseline for estimating the cost of human errors in the
current process. Although DRR has not yet made significant progress on this issue, DRR will
establish process metrics as part of the proposed process redesign.

Recommendation:

We recommend that the Director, DRR:

Establish a process to routinely test the accuracy of insurance determinations and evaluate the
test results in relationship to DRR-established benchmarks as part of the claims process redesign.




                                               16
CORPORATION COMMENTS AND OIG EVALUATION

On September 12, 2003, the Director, DRR provided a written response to the draft report. The
response is presented in Appendix III of this report. DRR concurred with our recommendation
and plans to tentatively complete corrective actions by December 31, 2005. The following
summarizes DRR's response.


       Establish a process to routinely test the accuracy of insurance determinations and
       evaluate the test results in relationship to DRR-established benchmarks as part of
       the claims process redesign.

DRR concurred with the recommendation. DRR indicated that, in light of the claims
reengineering process that is under way and the fact that it will involve a considerable amount of
new technology and changes to the process itself, DRR will comply with the audit
recommendation within that reengineering effort. Therefore, DRR will determine an acceptable
margin of error for the claims process and a method for periodically reviewing claims for
adherence to that standard as part of the reengineering process, which is tentatively scheduled to
be completed by year end 2005.

Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that the agreed-to
corrective action has been completed and is effective.

A summary showing management’s response to our recommendation is presented in
Appendix IV.




                                                17
                                                                                   APPENDIX I




                      OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of this audit was to determine whether the FDIC’s DRR is accurately making
deposit insurance determinations. That is, did DRR appropriately group depositors’ accounts by
ownership category and accurately determine insured amounts in accordance with the FDIC’s
rules and regulations. Our audit scope included testing actual insurance determinations for a
sample of accounts for 10 of the 11 insured depository institutions that failed in calendar year
2002. As discussed later in this report, prior OIG audit work included evaluating the internal
controls that ensure integrity, security, and reliability of data that is maintained in the RLS.
Except for reviewing data reconciliation reports to ensure that depositor data was accurately
captured from failed insured depository institutions, the scope of this audit did not include
specific testing of RLS general and application controls. We performed our work from
November 2002 to July 2003 in accordance with generally accepted government auditing
standards.

Methodology

To accomplish our objective, we gained a general understanding of applicable laws and
regulations and relevant DRR policies and procedures. We then selected a sample of insurance
determinations and tested the accuracy of actual insurance determination.

More specifically, to understand applicable laws and regulations, we did the following:

•   Reviewed a Legal Division memorandum to DRR that identifies and discusses the various
    insurable categories and insurance coverage requirements.
•   Reviewed the Legal Division’s Deposit Insurance Manual – Millennium Edition, The
    Financial Institution Employee’s Guide to Deposit Insurance, and other information about
    deposit insurance found on the FDIC’s external Web site including the FDIC brochure
    entitled Your Insured Deposit.
•   Reviewed DRR materials used to train claim specialists. The training material included
    DRR’s computer-based instruction on the claims process, “Claims Town. ”

We performed the following to understand DRR’s insurance determination process (the process)
and the process redesign efforts under way:

•   Interviewed DRR officials in Washington, D.C., and Dallas, Texas.
•   Reviewed DRR process maps; relevant policies and procedures including the Dallas Field
    Operations Branch (DFOB) Internal Claims Department Procedures; and the memorandum,
    Basic Assumptions for Editing the Grouping Report, which outlines conventions followed by
    claims specialists during the manual review of RLS- generated grouping reports.
•   Reviewed internal memoranda and external consulting reports on the claims process and
    process redesign project.


                                               18
                                                                                                     APPENDIX I




•    Interviewed the RLS Project Manager in DIRM to gain a general understanding of the system
     functionality.
•    Reviewed RLS system documentation, including RLS User Manual (Version 8) and RLS
     Operations Manual (Version 8). Additionally, the RLS Systems Manager gave us a hands-
     on demonstration of the system.
•    Reviewed an internal review report, CFOA Review of Claims, dated September 30, 2002, on
     claims.
•    Observed the closing weekend activity for Southern Pacific Bank in Torrance, California, in
     February 2003.

To test the accuracy of actual insurance determinations, we reviewed the 11 data certifications
for the 2002 failures to confirm that the RLS balances had been reconciled to the Proforma
closing balances. We also selected a sample of accounts from 10 of 11 2002 failures. Because
of the large number of claims in our overall universe (over 61,000), we consulted with
statisticians from DIR to devise an objective sampling methodology. We also consulted with
another DIR team that is doing research on the insurance determination process as part of the
FDIC’s overall process redesign project. 13 As part of its research, this team had developed a
prototype software model that can be used to make deposit insurance estimates. DIR’s insurance
estimates are based on the same depositor data from the failed institution that is input into the
RLS, but DIR’s system and the RLS use different programming logic to group accounts. As
explained in Appendix II of our report, the grouping process is a critical step in the insurance
determination process, but we could not easily replicate it for auditing purposes. We decided
that using DIR’s system gave us a way to establish a reasonable universe for sampling purposes.

To establish our sampling universe, DIR generated reports (data sheets) that identified accounts
or groups of accounts for which DIR’s estimated insurance determinations differed from DRR’s
insurance determinations. DIR compared its insurance estimate based on RLS’s initial grouping
data. Using this data as a point of comparison allowed us to test the manual grouping process
decisions and the editing process that occurs during the closing weekend. We recognized that
DIR’s estimates did not reflect or incorporate information about depositors’ accounts that DRR
routinely obtains during the post-closing phase of the insurance determination process.
Nevertheless, comparing DIR’s estimates to DRR insurance determinations helped ensure that
our sample universe included accounts that are considered more complex for deposit insurance
purposes (i.e., requiring supplemental information from the depositor).

We selected a stratified sample of accounts for each of the 11 failures in 2002. We derived the
sample size for each institution so that, if the universe exception rate for an institution was
20 percent, the sample error rate would be within ± 10 percentage points of that rate with a
95-percent confidence level. The resulting sample size for each institution is presented in
Table 7. The scope of our review did not include reviewing insurance determinations for
brokered accounts because that insurance determination process differs. The data DIR provided

13
   Specifically, as part of the FDIC’s overall efforts to prepare for a large bank failure, DIR was asked to experiment
with the grouping of potentially uninsured accounts by evaluating methods for targeting accounts for review as a
means of saving time at a large bank closing. DIR has published a series of reports and papers on this subject.
                                                         19
                                                                                                    APPENDIX I




us included brokered accounts; therefore, we removed readily identifiable brokered accounts or
groups from the universe before making our sample selections. However, after selecting our
sample, we discovered that we selected some ineligible groups including brokered accounts and
cases for which the insurance determinations were not finalized. We had not anticipated a large
number of these adjustments and previously decided not to select sample replacements.
Therefore, our final results are based on the sample sizes presented in the last column of Table 7.
We determined that the adjusted samples were manageable and would allow us to determine
whether DRR’s insurance determinations were accurate for each of the failures except one, New
Century Bank. DIR identified only two cases for which its insurance estimate differed from
DRR for New Century Bank, and these turned out to be brokered accounts. Therefore, we did
not review any insurance determinations for that failure.

Table 7: Audit Universe and Sample
                                          Total        Total         OIG                           OIG
                                        Deposits       No. of       Initial   Adjustments        Adjusted
 Fin #             Name                 (millions)    Groups *     Sample      to Sample          Sample
4650     Hamilton Bank, NA                $1,131.5      582           56            0               56
4651     Bank of Sierra Blanca                 10.5      11           10            0               10
4652     Oakwood Deposit Bank                  99.7      44           26            3               23
4653     NextBank, NA                         509.2     115           41            1               40
4654     Net First National Bank               29.1      16           13            1               12
4655     New Century Bank                      18.0       2            2            2                0
4656     Connecticut Bank of                  316.9     138           43            2               41
         Commerce
6005     Universal FSB                     41.3           24          18            0                18
4657     AmTrade                           10.5            7           7            1                 6
4658     Bank of Alamo                     50.1           30          21            0                21
4659     Farmers Bank & Trust              32.2           20          16            0                16
             Totals                    $2,249.2          989         253           10               243
Source: OIG analysis of DIR data sheets.

* For these groups, DIR identified a difference between its estimated insurance determinations and the final
insurance determinations made by DRR.



To evaluate the insurance determinations for each selected account or groups of accounts, we
performed the following actions:

•   Created a data collection instrument (DCI) that we used to document our work.
•   Searched the Liability Register in RLS using the depositor’s name, social security number, or
    the group number to identify all the accounts potentially related to the depositor. The
    Liability Register is a central repository of all depositor accounts that have been downloaded
    from the failed institution’s records. We then reviewed the detailed claim information
    recorded in RLS’s Liability Maintenance Section. The purpose of this step was to review the
    account styling in RLS to help us identify the ownership category and the insurance
    determination made by DRR. In summary, this approach allowed us to independently

                                                         20
                                                                                                  APPENDIX I




     validate that the data from DIR was complete, document DRR’s final insurance
     determination, and test the grouping process.
•    After identifying all the accounts and documenting DRR’s insurance determinations, we then
     grouped like accounts and independently made insurance determinations using FDIC’s Rules
     and Regulations for Deposit Insurance Coverage (i.e., 12 C.F.R. Part 330) as our guidelines.
     As necessary, we also reviewed DRR’s depositor files maintained in Dallas, Texas, to ensure
     that we considered all available information before making our insurance determinations.
•    We then compared our insurance determinations to DRR’s. We defined an exception to be
     any case in which our insurance determinations differed from DRR’s determination. Not all
     of the exceptions we identified resulted in actual errors. In some cases, we could not make a
     final insurance determination because additional information was required from the depositor
     or failed financial institution’s records and was not available during our audit. We discussed
     each of these exceptions with the respective claims specialist while we were on-site in
     Dallas, Texas.

Government Performance Results Act 14

To determine whether DRR had any performance measures that we should consider in this audit,
we reviewed the FDIC’s 2001-2006 Strategic Plan, FDIC 2002 Annual Performance Plan, DRR
2002 Strategic Plan, and DRR 2003 Strategic Plan. We identified one corporate annual
performance goal for the Insurance Program identified in the FDIC 2002 Annual Performance
Plan that directly relates to FDIC’s handling of depositors of failed institutions. Table 8 depicts
the relationship of this annual performance goal to FDIC’s strategic goal and objective.

Table 8: FDIC Strategic Goals and Objectives for Insurance
                                                            Annual Performance
   Strategic Goal            Strategic Objectives                     Goal                Performance Measure
Insured depositors     Customers of failed insured        The FDIC is prepared to       Depositors will have
are protected from     depository institutions have       deal with all financial       access to insured funds
loss without           timely access to insured funds     institution closings and      within 1 business day if
recourse to taxpayer   and financial services.            emerging issues.              the failure occurs on
funding.                                                                                Friday, or 2 business days
                                                                                        if the failure occurs on any
                                                                                        other day.
Source: FDIC’s 2002 Annual Performance Plan.

DRR’s performance in 2002 was consistent with its historic record -- depositors had timely
access to their funds. However, as reported by DRR’s external consultant working on the




14
   The Government Performance and Results Act of 1993 (P.L. No. 103-62, codified as title 5, 31, and 39, U.S.C.)
requires agencies to develop strategic plans, align programs and activities with concrete missions and goals, and
manage and measure results. An agency is to prepare annual performance plans that establish connections with
strategic goals and day-to-day activities and report on the extent to which the agency is meeting its annual
performance goals.
                                                        21
                                                                                                     APPENDIX I




process redesign project, the measures and metrics associated with the FDIC’s strategic goals
and objectives are not sufficiently detailed to facilitate the improvement of the deposit insurance
claims function. 15

The DRR 2002 Strategic Plan also established a division objective to help DRR prepare to deal
with all financial institution closings and emerging issues. To accomplish this objective, DRR
plans to continue its contingency pla nning for a large bank failure. Specific emphasis will be
placed on streamlining the deposit insurance determination process. The project will also
include the preparation of a feasibility study on the changing regulations/requirements on data
kept by the banking industry on deposit accounts. 16 The 2003 Strategic Plan includes this same
objective.

Reliance on Computer-Generated Data

We relied on computer-generated data from DIR’s prototype system and DRR’s RLS. To assess
the reliability of data within the RLS, we verified that DRR had reconciled initial deposit data
downloads to the RLS from the failed financial institutions records. We relied on the data DIR
provided from its system simply to help us establish a universe from which we could select our
sample. For each selected sample item, we independently verified the data DIR provided by
comparing it to data in the RLS. For example, the DIR data sheets included account balances,
group numbers, and the RC amount. For each sampled item, we accessed the RLS and reviewed
the detailed claim information recorded in RLS’s Liability Maintenance Section to verify account
balances, the final group numbers (including group zero), any applicable RC numbers, and the
amount of the RC recorded in the RLS Liability Register. We also traced RC certificates
recorded in the Liability Register to the RLS Payment Record.

Management Controls

DRR has established management controls to ensure insurance determinations are accurate.
Specifically, we determined that DRR has established policies and procedures designed to ensure
that:

•    Depositor data is accurately captured from the failed insured depository institution records to
     RLS.
•    Only authorized users have access to RLS, and appropriate access levels are assigned.
•    Depositor accounts are properly grouped so that insurance determinations can be made.
•    Final insurance determinations are properly documented and approved.




15
   Federal Deposit Insurance Corporation Claims Processing Analysis: Discovery Phase Report, dated June 17,
2002.
16
    Currently, banks provide data tapes in a standard format on an ad hoc basis to regulators when it is anticipated a
failure may occur. Possible statutory and regulatory changes affect mandating certain data requirements that would
facilitate the insurance determination process.
                                                          22
                                                                                                    APPENDIX I




We concluded that DRR had established a positive control environment based on an analysis of
policies and procedures, observation, and the results of the DRR Internal Review Branch report,
CFOA [Chief Financial Officer’s Act] Review of Claims, dated September 30, 2002, which
deemed the control points tested to be strong. 17

Summary of Prior Audit Coverage

The OIG has completed two reviews aimed at evaluating the internal controls that ensure the
integrity, security, and reliability of data that is maintained in RLS. The first report, Audit
Report No. 00-051, RLS Staffing and Training, was issued December 28, 2000, and the second
report, Audit Report No. 01-017, RLS Security and Data Validation, was issued June 18, 2001.
We did not perform detailed follow-up work on these reviews as part of this audit, but did
identify general progress since these reports were issued.

In the first report, the OIG found that DRR and DIRM – the two divisions with the greatest
claims processing and RLS responsibilities – had adequately planned for reduced claims and
RLS-related staffing levels that will result from corporate downsizing. With regard to training,
the report stated that RLS training could be enhanced. Specifically, the report suggested adding
more complex processing scenarios in the RLS training program and scheduling periodic
refresher courses. Since that report was issued, RLS training is now provided as new RLS
versions are released, and DFOB Procedure 01-005, RLS Refresher Training, establishes
procedures for ensuring claims specialists receive periodic RLS refresher courses and are made
aware of system changes. In addition, DRR expects to revise its basic claims training in 2003.

In the second report, the OIG found that better security reviews and additional security-related
procedures would enhance RLS security. 18 Additionally, chances for inaccurate or incomplete
data downloads could be further reduced by improving reconciliation procedures, verifying
record count totals transmitted from bank closings to the national database, strengthening the
data certification process, and improving the storage of archived RLS audit tables. Since that
report was issued, DFOB has established procedures for RLS Security Controls and Data
Quality, outlined security function in the RLS Operations and Users Manuals, and established
standard desk top guidelines relative to the initial reconciliation of the deposit download into the
RLS.

Pertinent Laws and Regulations

The statutory provisions governing deposit insurance can be found in the following sections of
the Federal Deposit Insurance Act.




17
   The scope of the internal review included testing for two failed institutions. Three control techniques were
reviewed for a judgmental sample of groups in each institution.
18
   This audit evaluated RLS security controls and related to RLS version 4. RLS Version 8 was released on
December 16, 2002.
                                                         23
                                                                                    APPENDIX I




       12 U.S.C. 1811 and 1821(a). Defines the mission of the FDIC – to insure deposits in
       banks and saving associatio ns – and provides that each depositor is insured to a
       maximum of $100,000.

       12 U.S.C. 1813 (m)(l). Defines insured deposits as the net amount due to a depositor as
       determined under sections 1817(i) and 1821(a).
       12 U.S.C. 1821(a)(1)(C). Requires aggregation of all deposits “maintained in the same
       capacity and the same right for [the depositor’s] benefit either in his own name or in the
       name of others.

       12 U.S.C. 1822(c). The FDIC is not required to recognize as owner of a deposit any
       claimant whose name or interest is not disclosed in the depository institution’s records.

       12 U.S.C. 1821(f). This section sets forth the basic procedures for obtaining payment of
       insured deposits. It governs resolution and judicial review of claims for deposit
       insurance.

The FDIC has issued a uniform set of deposit insurance regulations applicable to both banks and
saving associations. Those regulations are codified in 12 C.F.R. Part 330. The purpose of these
regulations, as defined in 12 C.F.R. Part 330.2, is to clarify the rules and define the terms
necessary to afford deposit insurance coverage and to provide rules for recognition of deposit
ownership in various circumstances.




                                                24
                                                                                                  APPENDIX II




               OVERVIEW OF THE INSURANCE DETERMINATION PROCESS
                                 (Claims Process)

Before a deposit insurance determination can be made, the following fundamental tasks must be
completed:

•     Group all deposits by owner. 19
•     Differentiate grouped accounts that qualify for separate categories of insurance coverage.
•     Total the deposits by owner and insurance category and compare the deposits to the
      applicable insurance limit.

Difficulties surrounding these tasks involve grouping or linking accounts of a particular
depositor that are not identically named in the deposit records and discerning the different rights
and capacities that trigger separate insurance coverage. In making insurance determinations, the
FDIC presumes that funds are owned as shown on the “deposit account records” of the insured
depository institution. The “deposit account records” are account ledgers, signature cards,
certificates of deposit, passbooks, and certain computer records.

The RLS was designed to provide a central repository of claims data and assists in performing
pre-closing estimates of uninsured depositors, bank closures, and subsequent claims processing
and tracking. The RLS is also the tool used by DRR to group accounts. The grouping process
for the RLS is defined as the procedure that automates the grouping of accounts based on
ownership type indicator (assigned by the RLS based on a default list of ownership-type
indicators) and the name(s), address, and tax identification number for each account. Because
the data obtained from failed institutions is not standardized, the RLS must first build name keys
from which it can sort data. The RLS uses a list of keywords to filter or prepare account
ownership information before name keys are built. The primary purpose of developing name
keys is to “group” accounts with common ownership together for insurance determination.

After the name keys are built, the RLS sorts the key fields by common names/addresses/or tax
identification numbers. When “matches” are found and the total amount in the accounts within
the group (i.e., insurable category – single ownership, joint, testamentary, etc.) exceeds the
insurance limit (i.e., $100,000 for each insurable category), a unique number is assigned to the
group and the group is put in the Grouping Report. Groups for which the total deposits in the
accounts do not exceed the insurance limits are placed in “Group 0,” meaning these accounts are
fully insured.

During the closing weekend, claims specialists use the Grouping Report to analyze the group
membership for appropriateness. This review process is necessary because bank coding
conventions, frequently occurring terms, and common keys may cause unrelated depositor
accounts to be grouped together. For example, the RLS may group unrelated depositor accounts



19
     Grouping refers to the process of identifying and gathering accounts that potentially have common ownership.
                                                         25
                                                                                   APPENDIX II




for individuals based on a common address (apartment building/boarding house). As claims
specialists review the initial grouping report, they can make this distinction and mark these
accounts to be “ungrouped” in RLS.

To facilitate the grouping process and reinforce core training, DFOB developed Basic
Assumptions for Editing the Grouping Report, which provides general guidance for claim
specialists. Specifically, it describes (1) the method to appropriately group deposit accounts,
which include multiple ownership categories, and (2) the general editing conventions that claims
specialists should use in making any necessary adjustment to the Grouping Report. Using
standard editing conventions helps to ensure that no matter who does the editing, everyone can
understand what has been done.

Claims specialists may also review available bank documentation (i.e., Certificates of Deposit or
signature cards) to validate account styling information. For example, reviewing a signature card
may reveal additional information that was truncated in the automated record. The goal is to
generate a Final Excess Register that reflects accounts that are clearly uninsured (excess) or that
could include excess funds. Thus, the depositor receives access to the insured deposits, but
FDIC maintains control of the other portion of the deposits until the final insurance
determination can be made. Generally, claims specialists need supplemental information from
the depositor to make an accurate insurance determination for these accounts.

The DRR creates a file for every group of accounts included on the Final Excess Register
(uninsured and potentially uninsured depositors) at the end of the closing weekend. For each
file, claims specialists subsequently contact the depositors before making a final insurance
determination, document discussions with depositors, obtain copies of signature cards or other
bank records, and document the final insurance determination that is entered in the RLS. The
final insurance determination is subject to review including concurrence of a Section Chief.
DRR issues RCs to uninsured depositors for the amount of uninsured deposits. The RC entitles
depositors to share proportionately in any funds recovered through the disposal of the assets of
the failed institution. The following is a diagram of the basic insurance determination process.




                                                26
                                                                                                                  APPENDIX II


        Overview of Claims Process




                      CLOSING                                                                                         POST-CLOSING


                     Friday - Saturday                                                   Sunday - Monday


                                                                                                                                Issue
                                    Uninsured    Initial Grouping      Refine
                                    Deposits                                                        Place Holds                 RCs
                                                       Report        Grouping
                                                                                 Final Excess        on Excess       Resolve
                                                  (i.e., uninsured    (manual
                                                      deposits)      review of   Register            Deposits         Holds
                                                                     Grouping                                                   Release
                      Automated                                       Report)                                                   Holds
Load, Proof, &        Grouping
Validate Data          Process
  into RLS           Performed by
                         RLS
                                                 Group 0                                            Transfer or
                                                    (i.e.,           Group 0         Final          Payout of
                                                  insured                           Group 0          Insured
                                    Insured
                                    Deposits     deposits)                                           Deposits




    Source: OIG Analysis of DRR Process Maps .




                                                                        27
                       APPENDIX III


CORPORATION COMMENTS




         28
                                                                                                                                    APPENDIX IV



                                         MANAGEMENT RESPONSE TO RECOMMENDATION

This table presents the management response that has been made on the recommendation in our report and the status of the
recommendation as of the date of report issuance. The information in this table is based on management’s written response to our
report.
                                                                                                                                                     Open
 Rec.                                                                   Expected          Monetary       Resolved:a     Dispositioned:b               or
Number Corrective Action: Taken or Planned/Status                     Completion Date     Benefits       Yes or No        Yes or No                 Closedc

      1       DRR will comply with the audit                        December 31, 2005      N/A               Yes               No
              recommendation within the claims                                                                                                       Open
              reengineering process effort. Therefore, DRR
              will determine an acceptable margin of error for
              the claims process and a method for periodically
              reviewing claims for adherence to that standard.
a
  Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
(2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG. (3) Management agrees to the OIG
monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits
achieved through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to
disposition the recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                           29
